             AUDIT OF THE

 IOWA DEPARTMENT OF TRANSPORTATION

        MOTOR VEHICLE DIVISION

OFFICE OF MOTOR VEHICLE ENFORCEMENT’S

EQUITABLE SHARING PROGRAM ACTIVITIES

            ANKENY, IOWA



       U.S. Department of Justice

     Office of the Inspector General

              Audit Division



       Audit Report GR-50-13-003

              October 2012

                         AUDIT OF THE

             IOWA DEPARTMENT OF TRANSPORTATION

                    MOTOR VEHICLE DIVISION

            OFFICE OF MOTOR VEHICLE ENFORCEMENT’S

            EQUITABLE SHARING PROGRAM ACTIVITIES

                        ANKENY, IOWA


                              EXECUTIVE SUMMARY


      The U.S. Department of Justice (DOJ), Office of the Inspector General
(OIG), Audit Division, has completed an audit of the use of DOJ equitable
sharing revenues by the Iowa Department of Transportation, Motor Vehicle
Division, Office of Motor Vehicle Enforcement (Iowa MVE). Equitable sharing
revenues represent a share of the proceeds from the forfeiture of assets
seized in the course of certain criminal investigations. 1 During the period of
July 1, 2009, through January 31, 2012, the Iowa MVE received DOJ
equitable sharing revenues totaling $1,928,379 to support law enforcement
operations. 2

      The objectives of the audit were to assess whether equitably shared
cash and property received by the Iowa MVE were accounted for properly
and used for allowable purposes as defined by the applicable regulations and
guidelines. We found that the Iowa MVE complied with equitable sharing
guidelines with respect to accurately reporting activity to DOJ and
permissible uses of equitable sharing funds. However, we found weaknesses
in the methods used by the Iowa MVE to account for DOJ equitable sharing
funds and the timeliness of one of its required reports. We also found the
Iowa MVE did not comply with certain Office of Management and Budget
(OMB) reporting requirements. Specifically, we found:

       •	 The Iowa MVE did not separately account for DOJ equitable sharing
          receipts, expenditures, and interest income earned on DOJ
          equitable sharing funds received during FY 2012.



       1
           The DOJ asset forfeiture program has three primary goals: (1) to punish and
deter criminal activity by depriving criminals of property used or acquired through illegal
activities; (2) to enhance cooperation among foreign, federal, state, and local law
enforcement agencies through equitable sharing of assets recovered through this program;
and, as a by-product, (3) to produce revenues to enhance forfeitures and strengthen law
enforcement.
       2
           The Iowa MVE fiscal year begins on July 1 and ends on June 30.
     •	 A weakness in the accounting procedures used by the Iowa MVE to
        track DOJ equitable sharing funds causing the Iowa MVE to be
        unaware that an invoice credit had not been received for an
        extended period of time.

     •	 The Iowa MVE did not submit the FY2010 Equitable Sharing
        Agreement and Annual Certification Report within the deadline
        established by the 2009 Equitable Sharing Guide.

     •	 That the Iowa MVE did not report DOJ equitable sharing fund
        expenditures on its Schedule of Expenditures of Federal Awards for
        FYs 2010 or 2011. As a result, the Iowa MVE’s equitable sharing
        funds were not included in its single audit examinations for those
        periods.

      Our report contains four recommendations that address the
weaknesses we identified. Our findings are discussed in detail in the
Findings and Recommendations section of the report. The audit objectives,
scope, and methodology are included in Appendix I.




                                   - ii ­
                                TABLE OF CONTENTS



INTRODUCTION ................................................................................ 1


       Background .................................................................................1


       OIG Audit Approach......................................................................2


FINDINGS AND RECOMMENDATIONS................................................ 4


       Accounting for Equitably Shared Resources .....................................4


       Compliance with Audit Requirements ..............................................6


       Equitable Sharing Agreement and Annual Certification Report ............7


       Monitoring Applications for Transfer of Federally Forfeited Property ....7


       Use of Equitably Shared Resources.................................................8


       Views of Responsible Officials ...................................................... 10


       Recommendations ...................................................................... 10


APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY ............... 11


APPENDIX II - AUDITEE RESPONSE................................................ 13


APPENDIX III - OFFICE OF THE INSPECTOR GENERAL ANALYSIS 

               AND SUMMARY OF ACTIONS NECESSARY TO 

               RESOLVE THE REPORT ........................................... 15

                                 INTRODUCTION

      The U.S. Department of Justice (DOJ), Office of the Inspector General
(OIG), Audit Division, has completed an audit of the use of DOJ equitable
sharing revenues by the Iowa Department of Transportation, Motor Vehicle
Division, Office of Motor Vehicle Enforcement (Iowa MVE). The audit
covered the Iowa MVE’s fiscal years (FY) 2010 and 2011 and through
January 31 of FY 2012. 3 During that period, the Iowa MVE received DOJ
equitable sharing revenues totaling $1,928,379 to support law enforcement
operations. The objectives of the audit were to assess whether equitably
shared cash and property received by the requesting agency were accounted
for properly and used for allowable purposes as defined by the applicable
regulations and guidelines.

Background

      The primary mission of the DOJ Asset Forfeiture Program is to employ
asset forfeiture powers in a manner that enhances public safety and
security. This is accomplished by removing the proceeds of crime and other
assets relied upon by criminals and their associates to perpetuate their
criminal activity against our society. Asset forfeiture has the power to
disrupt or dismantle criminal organizations that would continue to function if
only specific individuals were convicted and incarcerated.

       Another purpose of the DOJ Asset Forfeiture Program is to deter crime
by depriving criminals of the profit and proceeds from illegal activities, as
well as to enhance cooperation among federal, state, and local law
enforcement agencies by sharing federal forfeiture proceeds through the
DOJ equitable sharing program. State and local law enforcement agencies
may receive equitable sharing revenues by participating directly with DOJ
agencies in joint investigations leading to the seizure or forfeiture of
property. The amount shared with the state and local law enforcement
agencies in joint investigations is based on the degree of the agencies’ direct
participation in the case. The U.S. Department of the Treasury (Treasury)
administers a similar equitable sharing program. Our audit was limited to
equitable sharing revenues received through the DOJ equitable sharing
program.

      Although several DOJ agencies are involved in various aspects of the
seizure, forfeiture, and disposition of equitable sharing revenues, the
DOJ Criminal Division, Asset Forfeiture and Money Laundering Section
(AFMLS), is responsible for issuing policy statements, implementing

      3
          The Iowa MVE fiscal year begins on July 1 and ends on June 30.
governing legislation, and monitoring the use of DOJ equitable sharing
funds. Generally, the use of equitable sharing revenues by state and local
recipient agencies is limited to law enforcement purposes. However, under
certain circumstances, up to 15 percent of equitable sharing revenues may
be used for the costs associated with drug abuse treatment, drug and crime
prevention education, housing and job skills programs, or other nonprofit
community-based programs or activities. This provision requires that all
expenditures be made by the law enforcement agency and does not allow for
the transfer of cash.

      The Iowa MVE is located in Ankeny, Iowa, which is a northern suburb
of the state capital, Des Moines. 4 The Iowa MVE’s law enforcement budgets
were $12.49 million in FY 2010, $12.99 million in FY 2011, and
$12.80 million in FY 2012.

OIG Audit Approach

      We tested compliance with what we considered to be the most
important conditions of the DOJ equitable sharing program. Unless
otherwise stated, we applied the Guide to Equitable Sharing for State and
Local Law Enforcement Agencies, dated April 2009 (2009 Equitable Sharing
Guide) as our primary criteria. The 2009 Equitable Sharing Guide identifies
the accounting procedures and requirements for tracking equitably shared
monies and tangible property, establishes reporting and audit requirements,
and defines the permissible uses of equitably shared resources.

      To conduct the audit, we tested the Iowa MVE’s compliance with the
following five aspects of the DOJ equitable sharing program:

      •	 Accounting for equitably shared resources to determine
         whether standard accounting procedures were used to track
         equitable sharing assets.

      •	 Compliance with audit requirements to ensure the accuracy,
         consistency, and uniformity of audited equitable sharing data.

      •	 Monitoring of Applications for Transfer of Federally Forfeited
         Property to ensure adequate controls were established.

      •	 Annual Equitable Sharing Agreements and Certification
         Reports to determine if these documents were complete and
         accurate.
      4
         The Iowa Department of Transportation main headquarters is located in Ames,
Iowa, and the Iowa MVE is located in Ankeny, Iowa. The audit team visited both locations.


                                          -2 ­
     •	 Use of equitably shared resources to determine if equitable
        sharing funds were spent for permissible uses.

     See Appendix I for more information on our objectives, scope, and
methodology.




                                   -3 ­
              FINDINGS AND RECOMMENDATIONS

     We found that the Iowa MVE complied with equitable sharing
     guidelines with respect to permissible uses of DOJ equitable
     sharing funds. However, we found that the Iowa MVE did not
     separately account for DOJ equitable sharing funds as required,
     and we identified a weakness in the accounting procedures used
     to account for DOJ equitable sharing funds causing the Iowa MVE
     to be unaware that an invoice credit had not been received for
     an extended period of time. We also found that the Iowa
     Department of Transportation did not report DOJ equitable
     sharing expenditures on its Schedule of Expenditures of Federal
     Awards. Further, we found that the Iowa MVE did not file one of
     its required reports in a timely manner.

Accounting for Equitably Shared Resources

      The 2009 Equitable Sharing Guide requires that all participating state
and local law enforcement agencies implement standard accounting
procedures to track equitably shared monies and property. Additionally, DOJ
equitable sharing funds must be accounted for separately from any other
funds.

      To determine whether the Iowa MVE’s accounting procedures
adequately tracked equitably shared monies and property and separately
accounted for DOJ equitable sharing funds, we compared AFMLS equitable
sharing distribution reports to Iowa MVE accounting records, and we
considered the results of our work performed as reported in the Use of
Equitably Shared Resources section of this report.

      We reviewed the AFMLS report of DOJ equitable sharing distributions
and determined the Iowa MVE received four distributions of equitable
sharing funds, totaling $1,928,379, during the period of July 1, 2009,
through January 31, 2012. During this period, the Iowa MVE did not receive
any equitably shared tangible property.




                                   -4 ­
         TABLE 1: DOJ EQUITABLE SHARING DISTRIBUTIONS

                          TO THE IOWA MVE

               July 1, 2009, through January 31, 2012

               Fiscal Year   Distributions        Amount
                  2010              2             $331,672
                  2011              1                2,987
                  2012              1            1,593,720
                    TOTAL           4          $1,928,379
             Source: AFMLS

      To determine if the Iowa MVE properly accounted for DOJ equitable
sharing fund receipts, we reviewed and reconciled the Iowa MVE’s
accounting records to DOJ reports of equitable sharing funds distributed.

      Through our review of Iowa MVE official accounting records, we
determined that the Iowa MVE was not separately accounting for DOJ
equitable sharing receipts and expenditures as required by the
2009 Equitable Sharing Guide. Specifically, we found receipts for other than
DOJ equitable sharing funds recorded in the official accounting record of
DOJ equitable sharing funds. Iowa MVE officials advised us the receipts
were Department of the Treasury equitable sharing fund receipts and
deposits of seized assets that the Iowa MVE subsequently transferred to the
federal agencies responsible for the seizure. Iowa MVE officials advised us
the accounting system included a single fund code for all federal forfeiture
funds.

      We advised Iowa MVE officials that their accounting practices related
to DOJ equitable sharing funds were not in compliance with the
2009 Equitable Sharing Guide requirement to account separately for DOJ
equitable sharing funds. Iowa MVE officials informed us they would work
with the Iowa Department of Transportation Office of Finance to establish a
separate fund code for DOJ and other equitable sharing funds.

      We tested all four receipts, totaling $1,928,379, to ensure the funds
were properly deposited and recorded in a timely manner. As shown in
Table 2, the receipts were properly deposited in a timely manner.




                                    -5 ­
  TABLE 2: IOWA MVE EQUITABLE SHARING RECEIPTS REVIEWED

             July 1, 2009, through January 31, 2012



      DOJ Detail Distribution Report           Iowa MVE Accounting Records


      Transaction      Disbursement             Deposit          Deposit
         Date             Amount                Amount            Date

       08/27/2009          $328,044              $328,044       08/27/2009
       10/19/2009               3,628                3,628      10/19/2009
       04/26/2011               2,987                2,987      04/26/2011
       07/25/2011          1,593,720             1,593,720      07/25/2011
               TOTAL     $1,928,379            $1,928,379
   Source: Iowa MVE and AFMLS

       Through our transaction testing (reported in the Use of Equitably
Shared Resources section of this report), we identified an invoice credit for
$7,500 that the Iowa MVE had not received. Based on our interviews with
Iowa MVE officials, they were not aware that they had not received this
credit. Iowa MVE officials followed up with the vendor and subsequently
received the credit. In our judgment, this oversight demonstrates a
weakness in the accounting procedures used by the Iowa MVE to track DOJ
equitable sharing funds, and we recommend that the Iowa MVE strengthen
its accounting procedures to ensure that it accurately accounts for all DOJ
equitable sharing funds.

Compliance with Audit Requirements

      The 2009 Equitable Sharing Guide requires the Iowa MVE to comply
with audit requirements of the Single Audit Act Amendments of 1996 and
OMB Circular A-133, Audits of States, Local Governments, and Non-Profit
Organizations (OMB Circular A-133). OMB Circular A-133 requires non-
federal entities to prepare a Schedule of Expenditures of Federal Awards for
the period covered by the auditee's financial statements.

      To determine if the Iowa MVE accurately reported DOJ equitable
sharing fund expenditures, we reviewed the Iowa MVE’s accounting records
and the Schedule of Expenditures of Federal Awards included in the
Iowa MVE’s Single Audit Report for the years ended June 30, 2009, and
June 30, 2010. We found that the Iowa MVE did not report DOJ equitable
sharing fund expenditures on the Schedule of Expenditures of Federal
Awards as required by OMB Circular A-133.



                                        -6 ­
      We advised the Iowa Department of Transportation accountant
responsible for preparing the Schedule of Expenditures of Federal Awards of
the requirement to report DOJ equitable sharing expenditures on the
Schedule of Expenditures of Federal Awards. The accountant advised us the
Iowa Department of Transportation was not aware that equitable sharing
funds are subject to OMB Circular A-133. The accountant reported that all
future DOJ equitable sharing fund expenditures would be included on the
Schedule of Expenditures of Federal Awards and included in the single audit.

Equitable Sharing Agreement and Annual Certification Report

       AFMLS requires that any state or local law enforcement agency that
receives forfeited cash, property, or proceeds because of a federal forfeiture
submit an Equitable Sharing Agreement and Annual Certification Report.
The submission of this form is a prerequisite for the approval of any
equitable sharing request. Noncompliance may result in the denial of the
agency’s sharing request. The Equitable Sharing Agreement and Annual
Certification Report must be submitted every year within 60 days after the
end of the agency’s fiscal year regardless of whether funds were received or
maintained during the fiscal year. The head of the law enforcement agency
and a designated official of the local governing body must sign the
agreement. By signing the agreement, the signatories agree to be bound by
the statutes and guidelines that regulate the equitable sharing program and
certify that the law enforcement agency will comply with these guidelines
and statutes.

      We tested compliance with the Equitable Sharing Agreement and
Annual Certification Report requirements to determine if the required forms
for FYs 2010 and 2011 were accurate and complete. We determined that the
forms for FYs 2010 and 2011 accurately reflected the MVE’s equitable
sharing receipts and expenditures and the appropriate officials had signed
the forms. However, we found that the Iowa MVE did not submit the
FY 2010 form within 60 days after the end of the MVE’s fiscal year, as
required by the 2009 Equitable Sharing Guide.

Monitoring Applications for Transfer of Federally Forfeited Property

      The 2009 Equitable Sharing Guide states that all participating agencies
should maintain a log of all sharing requests that consecutively numbers the
requests and includes the seizure type, seizure amount, share amount
requested, amount received, and date received for each request. The
2009 Equitable Sharing Guide requires that the log be updated when an




                                     -7 ­
E-Share notification is received. 5 To determine whether the MVE was in
compliance with these requirements, we interviewed the Iowa MVE Chief
regarding the procedures for monitoring equitable sharing requests and
receipts and reconciled the Iowa MVE accounting records to the DOJ Detail
Distribution Report.

       The MVE Chief advised us they do not keep a log of the Applications
for Transfer of Federally Forfeited Property (DAG-71). 6 Further, the Chief
was unable to provide us a copy of the most recent E-Share notification.
However, the MVE Chief does maintain a file of all DAG 71s and notifications
by the Iowa Department of Transportation, Office of Finance regarding
receipts of equitable sharing funds. Due to the limited number of DAG 71s
submitted during the review period (four), in our judgment, the files
maintained by the Iowa MVE satisfy the 2009 Equitable Sharing Guide
requirement to maintain a log of equitable sharing requests. However, we
advised the Iowa MVE Chief of the requirement to maintain a log of equitable
sharing requests and to update the log upon receipt of an E-Share
notification. The Chief said that the Iowa MVE would develop and maintain a
log of equitable sharing requests as required by the 2009 Equitable Sharing
Guide.

Use of Equitably Shared Resources

      Generally, the 2009 Equitable Sharing Guide requires that equitable
sharing funds received by state and local agencies be used for law
enforcement purposes. However, under certain circumstances, up to
15 percent of equitable sharing revenues may be used for the costs
associated with nonprofit community-based programs or activities, such as
drug abuse treatment, drug and crime prevention education, and housing
and job skills programs. Law enforcement agencies can transfer cash to
another law enforcement agency.

Use of Equitably Shared Funds

       The MVE expended DOJ equitable sharing funds totaling funds totaling
$45,142 in FY 2010, $98,869 in FY 2011, and $524,515 in FY 2012 through
January 31, 2012. We judgmentally selected and tested 10 transactions,
totaling $569,566 or 85 percent of the total received, to determine if the
       5
         E-Share is the United States Marshals Service program used to make equitable
sharing payments to federal, state, and local law enforcement agencies through electronic
funds transfer. An e-mail payment notification is sent to the participating agency within
5 business days after the funds are deposited in the recipient’s bank account.
       6
         The DAG-71 is the DOJ form submitted by a state or local agency to the federal
seizing agency to request a share of seized assets.


                                           -8 ­
expenditures of DOJ equitable sharing funds were allowable and supported
by adequate documentation. We determined that $155,237 of the sampled
transactions were for the purchase of equipment and supplies, $14,328 were
training and travel expenditures, and one transaction was a transfer of
$400,000 to the State of Iowa Law Enforcement Academy. Based on our
review of supporting documentation provided by MVE, we determined that
its DOJ equitable sharing fund expenditure transactions were supported by
adequate documentation and were used for law enforcement purposes.

      We judgmentally selected approximately 10 percent of the equipment
and supplies purchased to verify the purchases were being used for an
allowable purpose and in the possession of the employee to whom they were
assigned. To determine the permissible use and possession of the sampled
equipment and supplies, we identified the MVE law enforcement personnel to
whom the purchased equipment and supplies were assigned and requested
the employees confirm their possession of the equipment or supplies
assigned to them.

      We received 37 letters in response to 37 requests for confirmation of
possession of equipment and supplies sent, which is a 100 percent response
rate. Each of the 37 responses received confirmed the employees’
possession of the equipment and supplies assigned to them. In our
judgment, this confirmation rate demonstrates that equipment and supplies
purchased with DOJ equitable sharing funds were in the possession of the
employees to whom they were assigned. Further, there was no indication
the equipment was being used for other than allowable law enforcement
purposes.

Use of Equitably Shared Property

      The 2009 Equitable Sharing Guide requires that any forfeited tangible
property transferred to a state or local agency for official use must be used
for law enforcement purposes only. Further, vehicles and other tangible
property transferred for official law enforcement use must be used
accordingly for at least 2 years. However, if the property becomes
unsuitable for such stated purposes before the end of the 2-year period, it
may be sold with approval from AFMLS and the proceeds deposited in the
agency’s DOJ equitable sharing revenue account. During FYs 2010, 2011,
and through January 31, 2012, the Iowa MVE did not receive any forfeited
tangible property.




                                     -9 ­
Supplanting

      The 2009 Equitable Sharing Guide also requires that shared resources
be used to increase or supplement the resources of the recipient agency and
prohibits the use of shared resources to replace or supplant the appropriated
resources of the recipient. To test whether equitable sharing funds were
used to supplement rather than supplant local funding, we reviewed the
Iowa MVE’s local budgets for FYs 2009 through 2012 and sampled FY 2011
and FY 2012 expenditures.

      Through our review of the Iowa MVE’s budget documents, we found
that Iowa MVE’s total budgeted appropriations decreased by $191,000 from
FY 2011 to FY 2012. However, through our review of the Iowa Department
of Transportation’s budget documents and interview with the Department of
Transportation Budget Analyst, we determined the decrease was the result
of statewide budget reductions. Further, our testing of sampled expenditure
transactions did not reveal any evidence of supplanting. Therefore, we
concluded DOJ equitable sharing funds were not used to supplant Iowa
MVE’s budget.

Views of Responsible Officials

      We discussed the results of our review with Iowa MVE officials
throughout the audit and at a formal exit conference. Their input on specific
issues has been included in the appropriate sections of the report.

Recommendations

     We recommend that the Assistant Attorney General, Criminal Division:

     1. Ensure that the Iowa MVE separately accounts for DOJ equitable
        sharing funds in its official accounting records.

     2. Ensure that the Iowa MVE strengthens its accounting procedures to
        ensure that it accurately accounts for DOJ equitable sharing funds.

     3. Ensure that the Iowa MVE submits all required Equitable Sharing
        Agreement and Annual Certification Reports in a timely manner.

     4. Ensure that the Iowa MVE accurately reports DOJ equitable sharing
        program expenditures on its Schedule of Expenditures of Federal
        Awards.




                                    - 10 ­
                                                                 APPENDIX I




           OBJECTIVES, SCOPE, AND METHODOLOGY

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

      The objectives of the audit were to assess whether equitably shared
cash and property received by the requesting agency were accounted for
properly and used for allowable purposes as defined by the applicable
regulations and guidelines. We tested compliance with what we considered
to be the most important conditions of the DOJ equitable sharing program.
We reviewed laws, regulations, and guidelines governing the accounting for
and use of DOJ equitable sharing receipts, including the Guide to Equitable
Sharing for State and Local Law Enforcement Agencies, dated April 2009.
Unless otherwise stated in our report, the criteria we audit against are
contained in these documents.

Scope and Methodology

       Our audit concentrated on, but was not limited to, equitable sharing
funds received by the Iowa MVE from July 1, 2009, through January 31,
2012. During this period, the Iowa MVE received $1,928,379 and expended
$668,526 in DOJ equitable sharing funds. We tested all four DOJ equitable
sharing receipts and judgmentally selected a sample of 10 expenditure
transactions, totaling $569,566, for testing. Judgmental sampling design
was applied to obtain broad exposure to numerous facets of the
disbursements reviewed, such as dollar amounts and cost categories. This
non-statistical sample design does not allow projection of the test results to
all disbursements.

      We performed audit work at the Iowa MVE office located in Ankeny,
Iowa and at the Iowa Department of Transportation Office of Finance,
located in Ames, Iowa. We interviewed Iowa MVE and Department of
Transportation, Office of Finance officials and examined records of federal
asset forfeiture revenues and expenditures of DOJ equitable sharing
revenues received by the Iowa MVE.




                                    - 11 ­
     We relied on computer-generated data contained in the DOJ
Consolidated Asset Tracking System for determining equitably shared
revenues and property awarded to the Iowa MVE during the audit period

We did not establish the reliability of the data contained in the Consolidated
Asset Tracking System as a whole. However, when the data used is viewed
in context with other available evidence, we believe the opinions,
conclusions, and recommendations included in this report are valid.

      In planning and performing our audit, we considered internal controls
established and used by the Iowa MVE over DOJ equitable sharing receipts
to accomplish our audit objectives. We did not assess the reliability of the
Iowa MVE financial management system or internal controls of that system
or otherwise assess internal controls and compliance with laws and
regulations for the state of Iowa as a whole.

      Our audit included an evaluation of the State of Iowa’s FY 2009 and
2010 Single Audits. The Single Audit Reports were prepared under the
provisions of Office of Management and Budget Circular A-133. We
reviewed the independent auditor’s report, which disclosed no control
weaknesses or significant noncompliance issues related specifically to the
Iowa MVE.

       In addition to the Single Audit, we also examined the audits conducted
by the Iowa Auditor of State, who is responsible for auditing Iowa counties,
cities, school districts and other governmental subdivisions and providing
guidelines to CPA firms performing such audits. We reviewed the Iowa
Auditor of State audit reports related to the Iowa MVE for the period of
FY 2004 through FY 2010 and determined that none of the findings directly
affected the Equitable Sharing Program.




                                    - 12 ­
APPENDIX II





                                   " 'I
                                   ~li ·
                                     jl                   i d j.l
                                                          I
                                                          .
                                                            f
                                                               !'
                                                               II   11
                                                                             i
                                                                             ! Iii
                                                                             I H,
                                                                                  I'
                                   i Ii
               AUDITEE RESPONSE





                                       ••                 f    II            ! '1'
                                                          !J Ii lh ~ fl IIi
                                                                    jl
                                   ~
                                   ~                      ~l II' ili! ·f 111




                                                                                           - 13 ­
                                                    _     jl        1"1 ' 11           !
                                   .'e. i
                                   " , ,.
                                   E II
                                                    i     11 I Ii   IN HI
                                                               ~l' 1 '
                                                                   '1
                                                                             (I
                                                                                  I
                                   ~ !i     ,     Ii ;
                                                .. Ill'
                                                 I
                                                          II
                                                          , I h! II      !
                                                                             Ii I·
                                                                             .'   "I
                                   ~+
                                   2: -I
                                   ~
                                    .. l·
                                       .,
                                    ,. ,­
                                   .Q 1l
                                   ~,
     I                 .           •                        I
     I Ii i!"!!                Ii
                                                            ,
                                                            i
     ! II! II II il
     ;  {I ill!< i'                        II    I
     I 11'1 n lilt                         G!, I I I
                                          \L II
        .! II' II I
     !~ Ii     i.
     I!     r!                 h           i' ,j
                                                        Ill!    11




                                                                     - 14 ­
     .f hI" iJ!. II                    ji r l , .
                                                         lj I!'!!
                  10
                                                        ,I!{ 'iii
     II III 1 II !i;
         <I
            III                                         !'11I i11i
      II il)l! II)' Ij ill
       I /0,  <    .L I II                              ll'ji1j!1
                                                        liL~lil!
!"~l' II 1111 III II I!
It   '                     •                        "   .
                                                    , l,llllili
                                                    ,
                                                                  APPENDIX III



               OFFICE OF THE INSPECTOR GENERAL

              ANALYSIS AND SUMMARY OF ACTIONS

              NECESSARY TO RESOLVE THE REPORT 


       The OIG provided a draft of this audit report to the Criminal Division and
the Iowa MVE. The Iowa MVE’s response letter is incorporated in Appendix II
of this final report. The Iowa MVE’s response included several attachments
that we did not include in this report due to their length.

      The audit recommendations are unresolved because the Criminal Division
declined to provide comments on the draft report. The following provides the
OIG analysis of the Iowa MVE’s response and a summary of actions necessary
to resolve each report recommendation.

Recommendation Number:

   1. Unresolved. The Iowa MVE concurred with our recommendation to
      separately account for DOJ equitable sharing funds in its official
      accounting records. The Iowa MVE stated that it was unaware of the
      need to create separate accounts for DOJ and Department of the
      Treasury funds, but that it has resolved the issue by creating separate
      accounts and distributing correct deposits and interest for each account.
      The Iowa MVE also provided documentation of these actions.

      However, this recommendation is unresolved because the Criminal
      Division did not respond to the draft report. This recommendation can
      be resolved once the OIG and the Criminal Division reach agreement on
      corrective action planned to address the recommendation.

   2. Unresolved. The Iowa MVE concurred with our recommendation to
      strengthen its accounting procedures to ensure that it accurately
      accounts for DOJ equitable sharing funds. The Iowa MVE stated that
      equipment was ordered and was not relayed to the person responsible
      for tracking DOJ funds. The Iowa MVE further stated that in the future,
      notification of any requests will be sent to appropriate officials and, upon
      approval, a log will be kept of any requests.

      However, this recommendation is unresolved because the Criminal
      Division did not respond to the draft report. This recommendation can
      be resolved once the OIG and the Criminal Division reach agreement on
      corrective action planned to address the recommendation.




                                      - 15 ­
3. Unresolved. The Iowa MVE concurred with our recommendation to
   submit all required Equitable Sharing Agreement and Annual Certification
   Reports in a timely manner. The Iowa MVE stated that while the
   2010 Report was submitted in a timely manner on August 20, 2010, an
   incorrect box was checked. The Iowa MVE also provided a copy of this
   report. The Iowa MVE also provided a copy of the amended and
   corrected report it submitted on September 27, 2010.

  However, this recommendation is unresolved because the Criminal
  Division did not respond to the draft report. This recommendation can
  be resolved once the OIG and the Criminal Division reach agreement on
  corrective action planned to address the recommendation.

4. Unresolved. The Iowa MVE concurred with our recommendation to
   accurately report DOJ equitable sharing program expenditures on its
   Schedule of Expenditures of Federal Awards. The Iowa MVE stated that
   it will report DOJ equitable sharing expenditures on the Schedule of
   Expenditures of Federal Awards for the fiscal year ending June 30, 2012.

  However, this recommendation is unresolved because the Criminal
  Division did not respond to the draft report. This recommendation can
  be resolved once the OIG and the Criminal Division reach agreement on
  corrective action planned to address the recommendation.




                                 - 16 ­
